GR-90-98-007
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE HOOPA VALLEY TRIBAL POLICE DEPARTMENT
CALIFORNIA
GR-90-98-007
JANUARY 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Hoopa Valley Tribal Police Department, California
(HVTPD). The HVTPD received a grant of $73,640 to hire one sworn officer under Funding
Accelerated for Smaller Towns (FAST); $328,268 to hire three sworn officers under the
Universal Hiring Program (UHP); and $7,875 to purchase laptops under Making Officer
Redeployment Effective (MORE). The purpose of the additional officers is to enhance
community policing efforts. 
Generally, HVTPD properly managed the COPS grants:


- Costs charged to the grants were in accordance with grant requirements. As of 
September 30, 1997, HVTPD had requested reimbursement of about 60 percent of the
    allowable costs for the FAST grant and 100 percent of the allowable costs for the UHP
    grant. No costs had been incurred for the MORE grant.
- Budgeted funds for police services and the number of officers increased from the
    level of FY 1994, the baseline year for the FAST grant award. 
- Funds provided under the grants were used to enhance HVTPD community policing
    efforts. The number of officers performing community policing activities increased by the
    number of officers funded under the grants.


However, HVTPD violated some grant conditions:


- The Financial Status Reports for the period March 1, 1995 through June 30, 1996, did
    not reflect the actual costs under the grant as shown on the general ledger.
- One of the required Financial Status Reports was not submitted and four Financial
    Status Reports were not submitted timely.
#####